No. 19-575
IN THE

Supreme Court of the United States
CHARTER COMMUNICATIONS, INC., ET AL.,
Petitioners,

v.
STEVE GALLION, ET AL.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

RESPONDENT STEVE GALLION’S
BRIEF IN OPPOSITION
TODD M. FRIEDMAN
ADRIAN R. BACON
LAW OFFICES OF TODD M.
FRIEDMAN, P.C.
21550 Oxnard Street
Suite 780
Woodland Hills, CA 91367
(877) 206-4741

SCOTT L. NELSON
Counsel of Record
ALLISON M. ZIEVE
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
snelson@citizen.org

Attorneys for Respondent Steve Gallion

December 2019

i
QUESTION PRESENTED
The Telephone Consumer Protection Act (TCPA),
47 U.S.C. § 227, prohibits calls to cell phones using
autodialers and/or prerecorded or artificial voice messages. In 2015, Congress amended this prohibition
(and a similar prohibition on calls to residential telephones using prerecorded or artificial voice messages)
to make an exception for calls to collect debts owed to
or guaranteed by the federal government. In this case,
the Ninth Circuit held that the exception was a content-based preference for some forms of speech over
others, and that the preference violated the First
Amendment. Applying this Court’s severability jurisprudence, the court went on to hold the exception severable from the remainder of the statute. The court
further held that, with the exception severed, the
TCPA remained a valid, content-neutral restriction on
the time, place, or manner of speech. The court’s holding followed a prior published decision of the Ninth
Circuit and agreed with an earlier decision of the
Fourth Circuit.
The question presented is:
Whether the court of appeals erred in severing the
exception for calls to collect government-backed debts
from the TCPA and sustaining the remainder of the
statute.

ii
RELATED CASES
The following proceedings are directly related to
this case:
Gallion v. Charter Communications Inc., No.
5:17-cv-01361-CAS(KKx), United States District
Court for the Central District of California. Motion for judgment on the pleadings denied and order certified for interlocutory appeal, Feb. 26,
2018.
Gallion v. Charter Communications, Inc., No. 1855667, United States Court of Appeals for the
Ninth Circuit. Judgment entered July 8, 2019.

iii
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
RELATED CASES ...................................................... ii
TABLE OF AUTHORITIES ...................................... iv
INTRODUCTION ....................................................... 1
STATEMENT .............................................................. 3
REASONS FOR DENYING THE WRIT .................... 8
I.

The courts of appeals are in complete agreement
on both the severability issue and the underlying
question of the constitutionality of the TCPA’s
exception for collection of government-backed
debt. ...................................................................... 8

II. The lower courts’ application of severability
doctrine is fully consistent with this Court’s
decisions. ............................................................ 13
III. Charter’s policy arguments do not support
review of the severability issue. ........................ 20
IV. This case is a poor candidate for review. .......... 23
CONCLUSION.......................................................... 25

iv
TABLE OF AUTHORITIES
Cases

Page(s)

Alaska Airlines, Inc. v. Brock,
480 U.S. 678 (1987) ..................................... 2, 6, 14
Am. Ass’n of Political Consultants, Inc. v. FCC,
923 F.3d 159 (4th Cir. 2019) ........................... 1, 10
Ayotte v. Planned Parenthood of N. New Eng.,
546 U.S. 320 (2006) ............................................. 14
Buckley v. Valeo,
424 U.S. 1 (1976) ................................................... 2
City of Lakewood v. Plain Dealer Publ’g Co.,
486 U.S. 750 (1988) ....................................... 11, 14
Denver Area Educ. Telecommc’ns
Consortium, Inc. v. FCC,
518 U.S. 727 (1996) ............................................. 14
Duguid v. Facebook, Inc.,
926 F.3d 1146 (9th Cir. 2019) ...................... passim
Free Enter. Fund v. Pub. Co.
Accounting Oversight Bd.,
561 U.S. 477 (2010) ......................... 3, 6, 14, 19, 21
Gomez v. Campbell-Ewald Co.,
768 F.3d 871 (9th Cir. 2014),
aff’d, 136 S. Ct. 663 (2016) ................................ 4, 7
Grayned v. City of Rockford,
408 U.S. 104 (1972) ............................................. 20
Greater New Orleans Broad. Ass’n v. United States,
527 U.S. 173 (1999) ....................................... 16, 17
Gresham v. Swanson,
866 F.3d 853 (8th Cir. 2017),
cert. denied, 138 S. Ct. 682 (2018) ...................... 10

v
Levin v. Commerce Energy, Inc.,
560 U.S. 413 (2010) ............................................. 18
Mims v. Arrow Fin. Servs., LLC,
565 U.S. 368 (2012) ..................................... 3, 4, 22
Moser v. FCC,
46 F.3d 970 (9th Cir.),
cert. denied, 515 U.S. 1161 (1995) .................... 4, 7
Murphy v. NCAA,
138 S. Ct. 1461 (2018) ............................... 3, 14, 15
Patriotic Veterans, Inc. v. Zoeller,
845 F.3d 303 (7th Cir.),
cert. denied, 137 S. Ct. 2321 (2017) .................... 10
Rappa v. New Castle County,
18 F.3d 1043 (3d Cir. 1994) ......7, 10, 11, 12, 13, 19
Reed v. Town of Gilbert,
135 S. Ct. 2218 (2015) ................................... 15, 16
Reno v. ACLU,
521 U.S. 844 (1997) ....................................... 14, 15
Rubin v. Coors Brewing Co.,
514 U.S. 476 (1995) ............................................. 17
Salazar-Limon v. City of Houston,
137 S. Ct. 1277 (2017) ......................................... 13
Sessions v. Morales-Santana,
137 S. Ct. 1678 (2017) ....................... 18, 19, 20, 21
Va. Military Inst. v. United States,
508 U.S. 946 (1993) ............................................. 25
Statutes
47 U.S.C. § 227(b)(1)(A) .............................................. 4

vi
47 U.S.C. § 227(b)(1)(A)(iii) ........................................ 4
47 U.S.C. § 227(b)(1)(B) .............................................. 4
47 U.S.C. § 227(b)(1)(C) .............................................. 4
47 U.S.C. § 227(b)(1)(D) .............................................. 4
47 U.S.C. § 608 ...................................................... 6, 12

INTRODUCTION
Two courts of appeals, in three cases, have addressed whether the Telephone Consumer Protection
Act (TCPA) violates the First Amendment in light of a
recent TCPA amendment exempting from some of its
requirements calls to collect debts owed to or guaranteed by the federal government. Both courts—the
Fourth and Ninth Circuits—reached the same conclusion: The addition of the exception, they ruled, transformed the TCPA into a content-based speech restriction, and the distinction drawn by the statute between government debt-collection calls and other robocalls does not satisfy strict scrutiny. However, the
provision exempting calls to collect government-guaranteed debt is severable and, with that provision severed, the remainder of the statute is constitutional.
See Pet. App. 1a; Duguid v. Facebook, Inc., 926 F.3d
1146 (9th Cir. 2019); Am. Ass’n of Political Consultants, Inc. v. FCC, 923 F.3d 159 (4th Cir. 2019)
(“AAPC”).
Petitions for writs of certiorari have now been filed
in all three of the cases. In this case, Charter Communications, a corporation sued for making telemarketing robocalls, seeks review of the Ninth Circuit’s severability determination. In the other two cases, petitions filed from opposing points of view raise both the
merits of the constitutional question and the severability issue. In the Fourth Circuit case, which involves
an action brought by political organizations seeking
declaratory and injunctive relief against the United
States, the United States principally seeks review of
the court of appeals’ ruling that the statute as
amended is unconstitutional, but also suggests that
the Court decide the severability issue—even though

2
the government acknowledges that the latter question
is not independently worthy of review. Barr v. Am.
Ass’n of Political Consultants, Inc., No. 19-631 (filed
Nov. 14, 2019). In the other Ninth Circuit case, another corporate defendant to a TCPA suit seeks review
both of the constitutional issue on which it prevailed
in the Ninth Circuit and of the severability issue on
which it lost, as well as of an unrelated issue of statutory construction. Facebook, Inc. v. Duguid, No. 19511 (filed Oct. 21, 2019).
The flurry of petitions should not obscure the absence of any important need for this Court’s review of
either issue, but especially of the severability issue
presented by the petition here. The two courts of appeals that have considered the issues so far have
agreed on both the result and the reasoning used to
reach it. Their decisions leave intact a statute providing important protections to the public against intrusive telemarketing, while setting aside only an exception added long after the statute’s original enactment
and affecting, in the government’s words, only “a
small fraction of the calls that are otherwise subject
to” the relevant provisions of the TCPA, “which continues to prevent millions of unwanted calls every
day.” Barr Pet. 12.
Moreover, the lower courts’ consistent rulings on
the severability issue comport with both common
sense and the long-settled legal principle that unconstitutional provisions of a federal statute must be severed “[u]nless it is evident that the Legislature would
not have enacted those provisions which are within its
power, independently of that which is not,” Alaska
Airlines, Inc. v. Brock, 480 U.S. 678, 684 (1987) (quoting Buckley v. Valeo, 424 U.S. 1, 108 (1976)), as long
as “the law remains ‘fully operative’ without the

3
invalid provisions,” Murphy v. NCAA, 138 S. Ct. 1461,
1482 (2018) (quoting Free Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S. 477, 509 (2010)). As
both the Ninth and Fourth Circuit agree, there is no
doubt that Congress would have enacted the TCPA
without the limited exception that, in those courts’
view, rendered it improperly content-based. Accordingly, a remedy that preserves the fundamental purpose of the TCPA best comports with severability principles and the congressional intent they seek to honor.
Meanwhile, litigation over the issues continues in
other circuits. See Barr Pet. 16. Should a conflict arise
over the resolution of either the First Amendment issue or the severability issue, the Court can consider
whether it requires resolution. Until then, however,
the agreement among the lower courts and the clear
consistency of their severability decisions with Congress’s expressed purpose to protect members of the
public against intrusive telemarketing counsel
strongly against granting review in this case.
STATEMENT
Congress enacted the TCPA in 1991 to halt widespread abuses of telephone and facsimile technology
that were inundating consumers with unwanted and
intrusive robocalls to home telephones and cell
phones, as well as junk faxes. See Mims v. Arrow Fin.
Servs., LLC, 565 U.S. 368, 370–72 (2012). As this
Court explained in Mims, “the TCPA principally outlaws four practices.” Id. at 373.
First, the Act makes it unlawful to use an automatic telephone dialing system or an artificial or
prerecorded voice message, without the prior express consent of the called party, to call any emergency telephone line, hospital patient, pager,

4
cellular telephone, or other service for which the
receiver is charged for the call. See 47 U.S.C.
§ 227(b)(1)(A). Second, the TCPA forbids using
artificial or prerecorded voice messages to call
residential telephone lines without prior express
consent. § 227(b)(1)(B). Third, the Act proscribes
sending unsolicited advertisements to fax machines. § 227(b)(1)(C). Fourth, it bans using automatic telephone dialing systems to engage two or
more of a business’ telephone lines simultaneously. § 227(b)(1)(D).
Id.
Following the TCPA’s passage, telemarketers challenged its constitutionality on First Amendment
grounds. In two cases, the Ninth Circuit rejected those
challenges, holding that the Act’s restrictions on use
of telephone technology including prerecorded messages and autodialers are content-neutral time, place,
or manner restrictions that serve substantial government interests. See Moser v. FCC, 46 F.3d 970 (9th
Cir.), cert. denied, 515 U.S. 1161 (1995); Gomez v.
Campbell-Ewald Co., 768 F.3d 871 (9th Cir. 2014),
aff’d on other grounds, 136 S. Ct. 663 (2016).
In 2015, as part of a budget bill, Congress amended
the TCPA to provide that the Act’s prohibitions on the
use of autodialers and artificial or prerecorded voice
messages in calls to cell phones, and its restriction on
the use of artificial or prerecorded voice messages to
residential telephones, do not apply to any call “made
solely to collect a debt owed to or guaranteed by the
United States.” 47 U.S.C. §§ 227(b)(1)(A)(iii); see also
id. § 227(b)(1)(B). In the wake of that amendment, defendants in TCPA cases again began asserting challenges to the Act’s constitutionality.

5
This action began in 2017 when respondent Steve
Gallion, on behalf of a putative class, sued Charter
Communications Service for using autodialers and
recorded messages to make telemarketing robocalls to
his cell phone. Charter, without contesting whether
Mr. Gallion’s complaint stated a claim for violation of
the TCPA, moved for judgment on the pleadings on
the ground that the TCPA, as amended, violates the
First Amendment by imposing a content-based speech
restriction.
The United States intervened to defend the statute’s constitutionality. The district court then denied
Charter’s motion, holding that the TCPA’s amendment had rendered it content-based but that the Act
remained constitutional because it was narrowly tailored to further a compelling government interest in
protecting privacy. Pet. App. 23a. The court certified
its order for interlocutory appeal. Pet. App. 24a. The
Ninth Circuit accepted the appeal and affirmed on different grounds in an unpublished opinion that
adopted the analysis of its published opinion in
Duguid, which was argued the same day and in which
the court had issued its opinion one month before its
decision in this case. Pet. App. 2a.
Specifically, the Ninth Circuit held in Duguid and
in the decision below that the addition of the government-backed debt exception changed what had been a
content-neutral statute into a content-based statute
by making application of the exception depend, in the
court’s view, on the content of a call. See Pet. App. 2a;
Duguid, 926 F.3d at 1153–54. The court further held
that the distinction drawn by the exception does not
satisfy strict scrutiny. See Pet. App. 2a; Duguid, 926
F.3d at 1154–56. Declining to consider whether the
TCPA, as a whole, continues to serve a compelling

6
interest in a narrowly tailored manner, the Ninth Circuit focused on whether the exception serves a compelling interest. Duguid, 926 F.3d at 1155. The court concluded that it does not, because the calls it permits undermine the statute’s overall purpose of protecting
against invasive calls that intrude on residential and
personal privacy. The court also found that the exception is not the least restrictive means of achieving the
alternative interest in protecting the public fisc posited by the government. Id. at 1155–56.
The Ninth Circuit concluded, however, that the
government-backed debt exception is severable from
the TCPA’s other provisions, see Pet. App. 2a; Duguid,
926 F.3d at 1156–57, and on that basis affirmed the
denial of Charter’s motion for judgment. Pet. App. 3a.
The court emphasized that, under this Court’s decisions, “[c]ongressional intent is the touchstone of severability analysis.” Duguid, 926 F.3d at 1156. The
court found one source of such intent in the Communications Act’s severability provision, which provides
that “[i]f any provision of this chapter … is held invalid, the remainder … shall not be affected thereby.” Id.
(quoting 47 U.S.C. § 608). That language, the court
concluded, creates “a presumption of severability absent ‘strong evidence that Congress intended otherwise.’” Id. (quoting Alaska Airlines, 480 U.S. at 686).
Far from finding strong evidence overcoming the
severability clause, the court found strong support for
severability in the TCPA’s structure and history. It
pointed out that, without the exception, the TCPA had
been “‘fully operative’ for more than two decades.” Id.
(quoting Free Enter. Fund, 561 U.S. at 509). The limited exception enacted in 2015, the court concluded,
“did not suddenly and silently become so integral to
the TCPA that the statute could not function without

7
it.” Id. at 1157. The Ninth Circuit acknowledged the
point that a court should generally be hesitant to cure
content discrimination by severing a statutory exception so that the statute restricts more speech, “absent
quite specific evidence of a legislative preference for
elimination of the exception.” Id. (quoting Rappa v.
New Castle County, 18 F.3d 1043, 1073 (3d Cir. 1994)
(emphasis added by Duguid)). However, the court
found such evidence with respect to the TCPA and,
therefore, concluded that Congress’s intent was
served by retaining the statute without the exception
rather than by jettisoning the Act’s robocalling restrictions altogether. “Excising the debt-collection exception preserves the fundamental purpose of the
TCPA,” the court concluded, “and leaves us with the
same content-neutral TCPA that we upheld … in
Moser and Gomez.” Id.
The court of appeals declined Charter’s invitation
to reconsider arguments that other provisions of the
TCPA that the court had upheld in Moser and Gomez
rendered the statute content-based. See Pet. App. 2a.
It also declined to consider, as not properly before it,
challenges to regulatory exceptions to the TCPA promulgated by the FCC, id. at 3a—a ruling that Charter’s
petition does not challenge. In addition, the court did
not reach Charter’s argument “that severing the unconstitutional portion of the TCPA raises retroactivity
concerns” because Charter had not raised that argument until its reply brief. Id.

8
REASONS FOR DENYING THE WRIT
I.

The courts of appeals are in complete
agreement on both the severability issue
and the underlying question of the constitutionality of the TCPA’s exception for collection of government-backed debt.

After Congress amended the TCPA’s longstanding
provisions in 2015 to include a limited exception for
calls made to collect debts owed to or guaranteed by
the federal government, companies and organizations
affected by the TCPA have sought to strike down the
entire statute as a “content-based” speech restriction.
So far, in the three cases decided by federal appellate
courts, two circuits have agreed on the resolution of
both the merits of the First Amendment challenge and
the question whether the government-debt exception
can be severed from the remainder of the statute to
remedy any constitutional infirmity. Further decisions of other courts of appeals are likely to follow, and
they will generate either continued uniformity or conflict on one or both issues. Under these circumstances,
there is no immediate need for review of the issues
posed by these cases—and, in particular, no important
reason for reviewing the severability question posed
by this petition.
As the government notes in its petition for certiorari in Barr, this Court often grants certiorari where
a court of appeals has held a federal statute unconstitutional, see Barr Pet. 15, but that usual practice is
not invariable. And despite the flaws in the reasoning
on which the lower courts relied in holding the TCPA
to be a content-based speech restriction, these cases
are instances where following that usual practice may
not be warranted even as to the Barr petition, in

9
which the United States challenges the lower courts’
constitutional holdings. The decisions of the Ninth
and Fourth Circuits hold only a single exception to the
TCPA’s robocalling restrictions to be constitutionally
problematic; the statute remains fully operational and
offers important public protections without that provision; and there will undoubtedly be future opportunities for review of the constitutional issue in cases
arising from other circuits if a conflict develops or if,
absent a conflict, further development of the issues in
the lower courts warrants intervention for purposes of
error correction.
In this case, Charter, like the United States in
Barr, invokes the proposition that “the invalidation of
a federal statute on constitutional grounds” is “ordinarily alone a sufficient basis for this Court’s review.”
Pet. 18–19. That consideration, however, is typically a
justification for granting a petition contesting invalidation of a statute, and Charter’s petition, of course,
does not challenge the lower courts’ holding that the
TCPA as amended is invalid. Moreover, although its
question presented includes the First Amendment issue, the argument in the petition is focused solely on
severability. Both respondent Gallion and the United
States would argue the incorrectness of the constitutional holding as an alternative ground for affirmance
of the judgment below if Charter’s petition were
granted, but that in itself would not render this case
worthy of review unless Charter’s challenge to the
court of appeals’ severability holding itself merited
this Court’s consideration. And that issue, as the
United States points out in its Barr petition, “does not
independently satisfy the usual criteria for this
Court’s review.” Barr Pet. 14.

10
The court of appeals’ severability ruling plainly
“does not conflict with any decision of another court of
appeals.” Id. As Charter’s petition acknowledges,
there is complete agreement among the only federal
appellate authorities directly on point—the Ninth Circuit’s rulings in this case and in Duguid and the
Fourth Circuit’s decision in AAPC. As the petition also
concedes, the most closely on-point decisions of other
circuits, Patriotic Veterans, Inc. v. Zoeller, 845 F.3d
303, 305 (7th Cir.), cert. denied, 137 S. Ct. 2321 (2017),
and Gresham v. Swanson, 866 F.3d 853, 854–55 (8th
Cir. 2017), cert. denied, 138 S. Ct. 682 (2018), are also
consistent with the Fourth and Ninth Circuit’s severability rulings regarding the TCPA. In both cases,
courts considering challenges to state robocall restrictions analogous to the TCPA’s noted that the challenged statutory exceptions could be severed from the
remainder of the statutes, leaving the statutes operational as to the prohibited activity of sending automated calls and messages.
Charter nonetheless claims that there is a conflict
among the circuits because other federal appellate
courts, in cases considering state-law speech restrictions entirely different from the TCPA, did not
sever statutory exceptions to preserve the constitutionality of the statutes at issue. The decisions Charter cites, however, do not in any way present a conflict
among the circuits. To begin with, only one of the appellate decisions Charter cites, the Third Circuit’s decision in Rappa, 18 F.3d at 1073, even discusses the
issue of severability. The rest have nothing in common
with this case except that they involved First Amendment challenges in which the existence of exceptions
to statutory restrictions played some role (in some of
the cases, a relatively small one) in the courts’

11
constitutional analysis. Moreover, each involved a
constitutional challenge to a state statute or local ordinance, and severability in such cases is a matter of
state or local law, not federal law. See City of Lakewood v. Plain Dealer Publ’g Co., 486 U.S. 750, 772
(1988). Indeed, Rappa, the sole decision that addresses severability, expressly acknowledges that
whether to sever provisions of a state statute is a question of state law. See 18 F.3d at 1072.
Even leaving aside that Rappa decided severability as a matter of Delaware law, its holding does not,
as Charter asserts, “directly conflict[] with the decision below.” Pet. 17. Rappa itself recognized that severing an exception to a speech restriction to restore a
statute’s content neutrality would be appropriate
where there was specific evidence that the legislature
would prefer that outcome. See 18 F.3d at 1073. Far
from disagreeing with that view, the Ninth Circuit
held that the circumstances where Rappa acknowledged it would be appropriate to sever a statutory exception were present with respect to the TCPA.
Rappa concerned a statute that prohibited political
signs along Delaware roadways but allowed a large
number of other types of signs, including for-sale signs
and signs advertising local industries, meetings,
buildings and attractions. Rappa held that the statute
was not content-neutral and that the distinctions it
drew did not survive strict scrutiny. The court then
proceeded to consider whether the statutory exceptions could be severed. Importantly, Rappa did not
hold, as Charter insists, that the First Amendment
forbids a court from remedying a constitutional defect
in a statute by severing a statutory exception to a
speech restriction to restore the statute’s content-neutrality. Had that been Rappa’s holding, it would not

12
have embarked on a state-law severability analysis at
all. Rather, the Third Circuit stated in Rappa that, informed by First Amendment concerns about
“sever[ing] the statute so that it restricts more speech
than it did before,” it would not “generally” sever such
a provision “absent quite specific evidence of a legislative preference for elimination of the exception.” 18
F.3d at 1073. Given the broad range of exceptions that
would have to be severed to preserve the statute in the
case before it, the Third Circuit concluded that it could
not “assume that the Delaware legislature would prefer us to sever the exception and restrict more speech
than to declare [the statute] invalid.” Id.
In Duguid, the Ninth Circuit specifically acknowledged Rappa’s point that severing a content-based exception to a speech restriction is “generally” not proper
“absent quite specific evidence of a legislative preference for elimination of the exception.” 926 F.3d at 1157
(quoting Rappa, 18 F.3d at 1073 (emphasis added in
Duguid)). The court found such specific evidence here,
not only in the Communication Act’s severability
clause, 47 U.S.C. § 608, but also in the statute’s history. As the court noted, the TCPA “has been ‘fully operative’ for more than two decades,” 926 F.3d at 1156,
and the statute as a whole serves important privacy
interests identified by Congress, see id. at 1149, 1155–
56. By contrast, the exception for calls to collect government-backed debt, enacted “with little fanfare” two
decades after the statute’s passage, id. at 1156, is central neither to the Act’s purposes nor to its ability to
function.
In light of these considerations, the court concluded that there was every reason to think Congress
would prefer a TCPA that did not exempt calls to collect government-backed debt over no TCPA

13
robocalling restrictions at all. See id. Unlike in Rappa,
where severing the statute’s exceptions would have resulted in prohibiting a wide variety of signs that the
legislature likely never contemplated forbidding, severing the exception here merely brought back within
the TCPA’s scope a single category of calls that had
been subject to it for years. Thus, consistent with
Rappa, the Ninth Circuit concluded that it was clear
Congress would prefer elimination of the exception to
invalidation of the TCPA’s robocalling prohibitions as
a whole.
II. The lower courts’ application of severability doctrine is fully consistent with this
Court’s decisions.
In the absence of a conflict among the circuits,
Charter asserts that the Ninth and Fourth Circuits’
consensus on severability conflicts with rulings of this
Court. But Charter identifies no decision of this Court
holding that a court may not sever a statutory exception that it has concluded renders an otherwise constitutional statute impermissibly content-based. Charter
has thus identified no “conflict[] with relevant decisions of this Court” within the meaning of this Court’s
Rule 10(c).
Rather, Charter’s claim is that the Ninth and
Fourth Circuits erred in applying this Court’s severability and First Amendment jurisprudence to the
TCPA. Such claims of error generally do not merit review. See, e.g., Salazar-Limon v. City of Houston, 137
S. Ct. 1277, 1278 (2017) (“[W]e rarely grant review
where the thrust of the claim is that a lower court
simply erred in applying a settled rule of law to the
facts of a particular case.”) (Alito, J., concurring in denial of certiorari). This case is no exception, given the

14
absence of any direct support in any decision of this
Court (or the lower courts) for Charter’s position.
A. Charter’s argument that a content-based exception to a statute that imposes time, place, or manner
limitations, or other restrictions on speech, is categorically ineligible for severance to preserve the constitutionality of the larger statute is at odds with this
Court’s precedents. The Court has often stated that
when a court has found a constitutional defect in a
statute, it generally has a duty “‘to limit the solution
to the problem,’ [by] severing any ‘problematic portions while leaving the remainder intact.’” Free Enter.
Fund, 561 U.S. at 508 (quoting Ayotte v. Planned
Parenthood of N. New Eng., 546 U.S. 320, 328–329
(2006)). Thus, if the statute is “fully operative as a
law” with the defective provision excised, a court
“must sustain its remaining provisions ‘[u]nless it is
evident that the Legislature would not have enacted
those provisions … independently of that which is [invalid].’” Id. at 509 (citations omitted). Accord, e.g.,
Murphy, 138 S. Ct. at 1482; Alaska Airlines, 480 U.S.
at 684. Under this “normal rule,” where the conditions
for severability are met, “partial, rather than facial,
invalidation is the required course.” Brockett v. Spokane Arcades, Inc., 472 U.S. 491, 504 (1985). These
principles, moreover, apply to First Amendment cases
as fully as they do to cases involving other constitutional provisions. See, e.g., Reno v. ACLU, 521 U.S.
844, 882–83 (1997); Denver Area Educ. Telecommc’ns
Consortium, Inc. v. FCC, 518 U.S. 727, 767 (1996);
City of Lakewood, 486 U.S. at 772; Brockett, 472 U.S.
at 506.
Applying these conventional principles, the Ninth
and Fourth Circuits correctly concluded that the government-backed debt exception met the criteria for

15
severance. The exception is a discrete “textual provision[] that can be severed” without rewriting the statute, Reno, 521 U.S. at 882, and the statute is, without
question, “fully operative” without the exception, Murphy, 138 S. Ct. at 1482. Indeed, the TCPA operated
without the exception for nearly a quarter of a century. And, as both the Ninth and Fourth Circuits concluded, the structure and history of the statute, the
Communications Act’s severability provision, and
Congress’s statutory findings concerning the harms of
telemarketing, see 47 U.S.C. § 227 note, leave no
doubt that Congress would never have chosen to sacrifice the entire ban on autodialed calls if it could not
make one exception for calls to collect governmentbacked debt.
Despite the consistency of the lower courts’ rulings
with this Court’s severability precedents, Charter insists that some of the Court’s First Amendment decisions imply that there is an exception to the general
requirement that constitutionally problematic provisions be severed: A court may not, Charter contends,
sever a content-based exception to a restriction on
speech to save an otherwise content-neutral statute.
But Charter does not cite a single decision of this
Court that holds or even suggests that severance is
impermissible in these circumstances. Instead, Charter cites a grab-bag of cases in which this Court struck
down overbroad content-based speech restrictions
without severing content-based exceptions that
played some role in the Court’s conclusion that the
laws did not withstand strict scrutiny. See Pet. 9–11.
For example, Charter’s leading case, Reed v. Town
of Gilbert, 135 S. Ct. 2218 (2015), contains no holding
whatsoever regarding severability. Neither the subject nor even the term is mentioned in the opinion.

16
That Reed does not address severance does not, as
Charter suggests, imply a sub silentio holding that
severance is categorically prohibited when a statute
contains content-based exceptions. There are any
number of more plausible reasons Reed did not discuss
severability. First, the respondent’s brief in this Court
did not argue for severability and referred to the subject only hypothetically in a single footnote. See Reed,
Resp. Br. 48 n.15, No. 13-502 (filed Nov. 14, 2014).
Second, because Reed involved a city ordinance, severability would have been a question of state law. See
supra p. 11. Third, Reed did not turn on the existence
of one or two content-based exceptions to an otherwise
neutral statute; rather, the Court concluded that the
sign code at issue was content-based through and
through: The code defined different categories of signs
based on their content and then subjected each category to different restrictions. 135 S. Ct. at 2227. The
circumstances of Reed are starkly different from those
posed by the single TCPA exception that the Ninth
and Fourth Circuits determined to be content-based
and severed. Charter’s assertion that “[t]he decision
below is in irreconcilable conflict with … Reed,” Pet.
10, is therefore patently wrong.
The same is true of the other cases Charter stringcites on page 11 of its petition. Not one of them discusses severability, let alone holds severance impermissible. And none of the cases concerned a single exception without which the challenged law would have
been content-neutral and constitutional. Moreover, in
all but two of the cases Charter cites, state or local
laws were at issue, so severance likewise would have
been an issue of local law that this Court would have
had no reason to address. The only two cases involving
federal laws, Greater New Orleans Broad. Ass’n v.

17
United States, 527 U.S. 173, 190 (1999), and Rubin v.
Coors Brewing Co., 514 U.S. 476, 488–91 (1995), likely
did not address severability because no one exception
could cleanly be excised from the statutes at issue in
a way that would even arguably address the numerous defects the Court found in them: The statute in
Greater New Orleans was “so pierced by exemptions
and inconsistencies that the Government cannot hope
to exonerate it,” 527 U.S. at 190, while the restriction
on alcohol-content advertising in Rubin was condemned by the “overall irrationality of the Government’s regulatory scheme,” 514 U.S. at 488, which
could not have been cured by surgically removing one
or a handful of exceptions. In sum, Charter does not
cite a single decision of this Court that conflicts with
the Ninth and Fourth Circuits’ holdings or even suggests that those holdings were incorrect.
B. Absent a plausible claim that the decision below conflicts with any decision of this Court, Charter
falls back on the assertion that the lower courts
evinced “misunderstanding” of the First Amendment,
Pet. 11, by “focus[ing] only on whether the government-backed debt collection exception, standing
alone, was unconstitutional,” id. at 12. Charter now
insists that this was the “wrong inquiry,” id., and that
the lower courts instead should have focused on
whether the exception indicated that the TCPA’s restrictions on other kinds of calls do not genuinely
serve their asserted purposes. If the courts concluded
that they do not, Charter asserts, the restrictions
should have fallen, not the exception.
The problem with Charter’s claim that the lower
courts erred (in addition to the unworthiness for this
Court’s review of such a claim of error) is that if the
lower courts had followed the approach Charter now

18
advocates—as the government and respondent urged
them to do, see Duguid, 926 F.3d at 1155 (“[T]he government would have us focus our analysis on the
TCPA writ large rather than the debt-collection exception.”)—they would have concluded that the TCPA as
a whole remained constitutional. That is, they would
have been forced to recognize that, despite a limited
exception that served other purposes, it continued to
promote substantial, and indeed compelling, interests
in protecting consumers against unwanted, intrusive
telemarketing. The Ninth Circuit, at Charter’s urging,
instead focused on whether the exception giving more
favorable treatment to calls aimed at collecting government-backed debt served a compelling interest,
and concluded that it did not. See id. at 1155–56.
Having found that the TCPA’s preferential treatment of one type of call lacked adequate justification,
but that the statute was otherwise both fully operative
and constitutional, the Ninth Circuit followed the
logic of its approach and severed the exemption rather
than striking down the autodialing restriction in its
entirety. That remedy was entirely in keeping with
this Court’s recognition, in the equal protection context, that when a statutory exception impermissibly
gives a small group more favorable treatment than the
majority, a court has a remedial choice between “extend[ing] favorable treatment” to everyone or eliminating the exception and subjecting everyone to the
unfavorable general rule. Sessions v. Morales-Santana, 137 S. Ct. 1678, 1701 (2017). The choice, as in
other cases involving severance, depends on “the remedial course Congress likely would have chosen ‘had
it been apprised of the constitutional infirmity.’” Id.
(quoting Levin v. Commerce Energy, Inc., 560 U.S.
413, 426–427 (2010)). Here, as in Sessions,

19
“considering whether the legislature would have
struck an exception and applied the general rule
equally to all, or instead, would have broadened the
exception,” id. at 1700, can lead only to one result:
Congress would have chosen to dispense with the exception rather than give all robocallers free rein.1
Charter nonetheless insists that this approach was
improper because the “speech-promoting exception” to
the TCPA “in isolation is obviously not unconstitutional.” Pet. 14. Charter’s statement is nonsensical because an “exception” by definition cannot exist in “isolation” from the rule to which it is an exception. And
the Ninth Circuit’s holding was indeed that it was the
exception—which it saw as an unjustified contentbased preference granted to one type of speech over
others—that was unconstitutional.
Charter’s further assertion that “what the Ninth
Circuit did … was not ‘severability’ but a crude rewriting of the statute,” Pet. 14, is equally wrong. The
Ninth and Fourth Circuits did not rewrite anything.
They did no more than what this Court’s precedents
allow: They severed a discrete, constitutionally “problematic” provision, Free Enter. Fund, 561 U.S. at 508,
and left the remainder of the statute intact, just as it
was before that provision was enacted. If such a surgical approach constituted “rewriting,” then severance
would never be permissible.
––––––––––––––––––––––––

Notably, the appellate decision on which Charter principally relies, Rappa, recognizes that the severability issue in First
Amendment cases is essentially the same as the remedial issue
posed by equal protection cases where courts must choose between nullifying an exception or striking down an entire statute,
and it is governed by the same consideration: Congress’s preference. See 18 F.3d at 1073 n.53.
1

20
Finally, Charter half-heartedly seeks to demonstrate a conflict with this Court’s precedents by asserting that even if severance is otherwise permissible, it
is impermissible in a case where a company asserts a
First Amendment defense to civil damages liability for
violating a statute at a time when an unconstitutional
exception had not yet been severed. Again, the decisions Charter cites offer no support for its assertion.
Its leading precedent, Grayned v. City of Rockford, 408
U.S. 104, 107 n.2 (1972), says only that the amendment of a statute after a defendant is arrested and
criminally convicted for violating it has no bearing on
the question of the constitutionality of the criminal
conviction. Charter’s backup citation to another footnote, this one in Sessions, likewise refers (in dicta)
only to whether severance of an unconstitutional provision could validate a criminal conviction. See 137 S.
Ct. at 1699 n.24. Nothing Charter cites calls into
doubt the applicability of severance principles to this
case.
Moreover, the court of appeals declined to reach
Charter’s argument that applying the TCPA, with its
government-backed debt exception severed, to conduct
predating the severance would raise retroactivity concerns because Charter raised the argument for the
first time in its reply brief, and thus the argument was
deemed waived. Pet. App. 3a.
III. Charter’s policy arguments do not support
review of the severability issue.
Charter contends that its request for review of the
lower courts’ severability rulings is important because
those rulings would create disincentives to challenge
unconstitutional laws in circumstances like those
here, where the result of severance is to allow the

21
claims against Charter to proceed as they would have
had it not raised its constitutional defense. As this
Court has recognized, severance sometimes has such
consequences. In Sessions, for example, when this
Court severed and invalidated a statutory provision
giving preferential treatment to children born abroad
to unwed citizen mothers, the result was that the child
of an unwed citizen father who successfully challenged
the law received no relief. See 137 S. Ct. at 1701. Likewise, in Free Enterprise Fund, the effect of this Court’s
severability ruling was to deny the petitioners the relief they wanted: an injunction that would have
stripped the Public Company Accounting Oversight
Board of all power and authority, and prohibited it
from regulating and investigating them. See 561 U.S.
at 508. The Court’s severability doctrine reflects the
view that parties should not be given unduly broad
remedies just to reward them for raising valid constitutional claims. Rather, the remedy for a constitutional violation should be no broader than necessary
to eliminate the violation while preserving Congress’s
legislative handiwork to the extent consistent with the
Constitution and with congressional intent.
In any event, the suggestion that severability will
deter meritorious constitutional challenges is unfounded. Parties do not know the result of the severability calculus in advance and have ample incentive to
raise constitutional claims both defensively and offensively in situations where they face potential liability
or otherwise stand to gain if a statute is struck down.
Moreover, in the TCPA context (as in most others)
there are alternative avenues by which the constitutional issue could have been raised if defendants had
been deterred from raising First Amendment defenses
for fear that they would gain no benefit from

22
prevailing because of a severability ruling: Recipients
of autodialed calls seeking to collect governmentbacked debt could challenge the constitutionality of
the statutory exception; the United States or companies engaged in such calls could seek declaratory relief
concerning the constitutionality of the exception if
they feared consumer lawsuits might target the exception; or the issue could be raised (as it was in the
Fourth Circuit case) in an action seeking declaratory
and injunctive relief against the government.
Charter also asserts that resolution of the severability issue is a matter of importance because, it
claims, the TCPA has led to excessive litigation and
liability. Charter’s policy argument has nothing to do
with the constitutional and severability issues here.
Charter’s complaints about the TCPA do not bear on
the correctness of the Ninth and Fourth Circuits’ application of the severability doctrine, but instead reflect disagreement with Congress’s choice of broadly
prohibiting autodialed calls and other telemarketing
practices addressed by the TCPA and its creation of a
private right of action to enforce the law through
claims for statutory damages. As this Court noted in
Mims, however, Congress’s enactment of the TCPA responded to “[v]oluminous consumer complaints about
abuses of telephone technology” by targeting “practices invasive of privacy.” 565 U.S. at 371. The extent
of litigation under the TCPA reflects “‘a shocking degree of noncompliance’ with the Act,” id. at 386, not
the illegitimacy of the Act’s scope and the remedies it
provides. Disagreement with Congress’s proper objectives in enacting the TCPA should play no role in determining whether a dispute over the severability of a
later-added exception is a matter warranting this
Court’s attention.

23
Likewise meritless is the argument, advanced in
an amicus curiae brief by the Chamber of Commerce,
that the Court should grant review because the Chamber believes that TCPA claimants, the FCC, and lower
courts have misread the Act’s definition of automated
telephone dialing systems. The petition in this case
does not raise that statutory issue, and it is absurd to
suggest that the Court should strike down a statute
on constitutional grounds because of concerns about
the proper construction of one of its provisions.
IV. This case is a poor candidate for review.
This case presents a particularly unsuitable vehicle for considering the question presented or the underlying merits issue of the constitutionality of the
TCPA’s government-backed debt exception. To the extent that the Court’s ordinary practice of reviewing
cases where federal statutes are held unconstitutional
bears on whether certiorari should be granted in any
of these cases, see Pet. 18–19, it argues sharply
against a grant of certiorari in this one, where that
question is not the subject of the petition and would
arise as an alternative ground for affirmance of the
decision below. If it is the constitutional issue that
merits review, granting certiorari on a petition devoted almost exclusively to the remedial question and
relegating the underlying constitutional issue to a
subsidiary role would be a case of the tail wagging the
dog.
Moreover, if, as shown above, the severability issue
does not itself merit review, granting certiorari in either this case or the other Ninth Circuit case, Duguid,
would be particularly unwarranted. Reversal of the
judgments below in these cases would be possible only
if the petitioners prevailed not only on the

24
constitutional issue, but also on an issue that there is
no compelling reason for the Court even to decide.
Thus, even if the Court were to conclude that the merits issue of the constitutionality of the TCPA warranted review at this time, the proper course would be
to grant the Barr petition, limit the grant to the constitutional question, and deny the petitions in both
Ninth Circuit cases, as the outcomes of those cases
would be unaffected regardless of the outcome in
Barr.2
The procedural posture of this case (as well as that
of Duguid) also disfavors review. The decisions are interlocutory and arise from motions challenging the
pleadings (in this case, Charter’s motion for judgment
on the pleadings, and, in Duguid, a motion to dismiss
under Rule 12(b)(6)). If the actions proceed, they may
end in any number of ways that would obviate the
need to decide the severability question or the underlying constitutional issue.3 This Court usually avoids
––––––––––––––––––––––––

In Barr, it is at least arguable that a decision on the constitutional issue would result in a different judgment with a different practical impact, as the district court on remand in Barr may
enter a declaratory judgment that the government-backed debt
exception is stricken from the statute, which may in turn affect
FCC rulemaking activity or bind persons acting in concert with
the federal government in making autodialed calls to collect government debt. That potential impact, however, does not by itself
justify granting certiorari on the constitutional question even in
Barr. The possibility that some debtors may be spared intrusive
autodialed calls by the effect of the Barr judgment does not add
appreciably to the importance of the constitutional issue on
which the two lower courts are in agreement.
3 As the United States has pointed out in its Barr petition
and its responses to this petition and the one in Duguid, Duguid
is also an unsuitable candidate for review of either the constitutional or severability issue because of the confounding factor of
(Footnote continued)
2

25
cases in such a preliminary posture. See Va. Military
Inst. v. United States, 508 U.S. 946 (1993) (opinion of
Scalia, J., respecting the denial of certiorari). Especially in light of the complete agreement among the
courts that have so far addressed the issues, and the
likelihood that there will be future opportunities to
address the issues on appeal from a final judgment
should some disagreement among the lower courts
emerge, review at this time is unwarranted.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be denied.
Respectfully submitted,
TODD M. FRIEDMAN
ADRIAN R. BACON
LAW OFFICES OF TODD M.
FRIEDMAN, P.C.
21550 Oxnard Street
Suite 780
Woodland Hills, CA 91367
(877) 206-4741

SCOTT L. NELSON
Counsel of Record
ALLISON M. ZIEVE
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
snelson@citizen.org

Attorneys for Respondent Steve Gallion
December 2019

––––––––––––––––––––––––
its inclusion of another issue that is the subject of ongoing regulatory consideration by the FCC. See Barr Pet. 17; U.S. Gallion
Opp. 6; U.S. Duguid Opp. 10–11.

